November 16, 2009

KAREN HUNTER
DIRECTOR, FINANCIAL REPORTS DIVISION
FINANCIAL MANAGEMENT SERVICE, U.S. DEPARTMENT OF THE TREASURY

LOUISE DIBENEDETTO
U.S. GOVERNMENT ACCOUNTABILITY OFFICE

DANA JAMES
OFFICE OF MANAGEMENT AND BUDGET

SUBJECT:     Audit Opinion on the Postal Service’s Special-Purpose
             Financial Statements

Attached is a copy of the report on our audit of the Postal Service’s special-purpose
closing package. The objective of the audit was to express an opinion on the
reclassified balance sheets as of September 30, 2009, and September 30, 2008, and
the related reclassified statements of net cost and changes in net position for the years
then ended (referred to as special-purpose financial statements).

The special-purpose financial statements and notes were prepared by the Postal
Service for the purpose of providing financial information to the U.S. Department of the
Treasury and U.S. Government Accountability Office to use in preparing and auditing
the Financial Report of the U.S. Government, and are not intended to be a complete
presentation of the Postal Service’s financial statements. In our opinion, the
special-purpose financial statements referred to above present fairly, in all material
respects, the financial position of the Postal Service as of September 30, 2009, and
September 30, 2008, and its net costs and changes in net position for the years then
ended in conformity with accounting principles generally accepted in the United States
of America and the presentation pursuant to the requirements prescribed in Treasury
Financial Manual, Chapter 4700.
If you have any questions, please contact John Cihota, Deputy Assistant Inspector
General for Financial Accountability, or Lorie Nelson, Director, Financial Reporting, at
(703) 248-2100.




Tammy L. Whitcomb
Assistant Inspector General
 for Audit

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Bill Harris
November 16, 2009

JOSEPH CORBETT
EXECUTIVE VICE PRESIDENT AND CHIEF FINANCIAL OFFICER

SUBJECT:     Audit Report – Opinion on the Postal Service’s Special-Purpose
             Financial Statements (Report Number FT-AR-10-003)

We have audited the accompanying reclassified balance sheets as of
September 30, 2009, and September 30, 2008, and the related reclassified statements
of net cost and changes in net position for the years then ended (hereinafter referred to
as the special-purpose financial statements) contained in the special-purpose closing
package of the Postal Service (Project Number 09BM010FT000). These special-
purpose financial statements are the responsibility of Postal Service management. Our
responsibility is to express an opinion on these special-purpose financial statements
based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
U.S. Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the
special-purpose financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures
in the special-purpose financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as
evaluating the overall special-purpose financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes
contained in the special-purpose closing package have been prepared for the purpose
of complying with the requirements of the U.S. Department of the Treasury’s Financial
Manual (TFM) Volume I, Part 2, Chapter 4700, as described in Note X, solely for the
purpose of providing financial information to the U.S. Department of the Treasury and
U.S. Government Accountability Office to use in preparing and auditing the Financial
Report of the U.S. Government, and are not intended to be a complete presentation of
the Postal Service’s financial statements.




      This report has not yet been reviewed for release under FOIA or the Privacy
      Act. Distribution should be limited to those within the Postal Service with a
      need to know.
Opinion on the Postal Service’s Special-Purpose                               FT-AR-10-003
 Financial Statements



In our opinion, the special-purpose financial statements and accompanying notes
referred to above present fairly, in all material respects, the financial position of the
Postal Service as of September 30, 2009, and September 30, 2008, and its net costs
and changes in net position for the year then ended, in conformity with accounting
principles generally accepted in the United States of America and the presentation
pursuant to the requirements of the TFM Chapter 4700.

The information included in the Other Data is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by the TFM Chapter 4700. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding
methodology and presentation of this information. We also reviewed such information
for consistency with the related information presented in the Postal Service’s financial
statements. However, we did not audit this information, and accordingly, we express no
opinion on it.

In accordance with U.S. Government Auditing Standards and OMB Bulletin No. 07-04,
another auditor issued reports dated November 16, 2009, and November 14, 2008, on
its consideration of the Postal Service’s internal control over financial reporting and its
compliance with certain provisions of laws and regulations. Those reports are an
integral part of an audit of general-purpose financial statement reporting performed in
accordance with U.S. Government Auditing Standards and OMB Bulletin No. 07-04, as
amended, and should be read in conjunction with this report in considering the results of
our audit.

In planning and performing our audit of the special-purpose financial statements, we
also considered the Postal Service’s internal control over the financial reporting process
for the special-purpose financial statements and compliance with the TFM Chapter
4700. Management is responsible for establishing and maintaining internal control over
financial reporting, including Other Data, and for complying with laws and regulations,
including compliance with the TFM Chapter 4700 requirements.

Our consideration of internal control over the financial reporting process for the special-
purpose financial statements would not necessarily disclose all matters in the internal
control over the financial reporting process that might be significant deficiencies. Under
standards issued by the American Institute of Certified Public Accountants, significant
deficiencies are deficiencies in internal control, or a combination of deficiencies, that
adversely affects the Postal Service’s ability to initiate, authorize, record, process, or
report financial data reliably and in accordance with accounting principles generally
accepted in the United States of America such that there is more than a remote
likelihood that a misstatement of the special-purpose financial statements being audited
that is more than inconsequential will not be prevented or detected. Material
weaknesses are significant deficiencies, or a combination of significant deficiencies, that




                                                  2
Opinion on the Postal Service’s Special-Purpose                              FT-AR-10-003
 Financial Statements


result in a more than remote likelihood that material misstatements in relation to the
special-purpose financial statements being audited will not be prevented or detected.

As discussed in Postal Service’s independent public accounting firm’s Report on
Internal Control Over Financial Reporting and on Compliance and Other Matters Based
on an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards, dated November 16, 2009, the firm identified one deficiency in
internal control over financial reporting they considered to be significant related to
business mail entry units mail acceptance.

We found no material weaknesses in internal control over the financial reporting
process for the special-purpose financial statements, and our tests of compliance with
the TFM Chapter 4700 requirements disclosed no instances of noncompliance that are
required to be reported under U.S. Government Auditing Standards and OMB Bulletin
No. 07-04, as amended. However, providing opinions on internal control over the
financial reporting process for the special-purpose financial statements or on
compliance with the TFM Chapter 4700 requirements were not objectives of our audit of
the special-purpose financial statements and, accordingly, we do not express such
opinions.

In its unqualified opinion on the FY 2009 financial statements, another auditor
expressed significant uncertainty as to whether the Postal Service will have sufficient
liquidity to make a $5.5 billion payment on September 30, 2010, pursuant to the Postal
Accountability and Enhancement Act of 2006, Public Law 109-435. That view should be
read in conjunction with this report.

This report is intended solely for the information and use of the Postal Service, the U.S.
Department of the Treasury, the Office of Management and Budget and the U.S.
Government Accountability Office in connection with the preparation and audit of the
Financial Report of the U.S. Government and is not intended to be and should not be
used by anyone other than these specified parties.




Tammy L. Whitcomb
Assistant Inspector General
 for Audit

Attachment

cc: Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Bill Harris




                                                  3
Opinion on the Postal Service’s Special-Purpose                               FT-AR-10-003
 Financial Statements


          Attachment A: Notes to the Special-Purpose Financial Statements

Note X - Special-Purpose Financial Statement Requirements

The Budget and Accounting Procedures Act of 1950 allows the Secretary of the
Treasury to stipulate the format and requirements of executive agencies to furnish
financial and operational information to the President and the Congress to comply with
the Government Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356),
which requires the Secretary of the Treasury to prepare and submit annual audited
financial statements of the executive branch. The Secretary of the Treasury developed
guidance in the U.S. Department of the Treasury’s Financial Manual (TFM) Volume I,
Part 2, Chapter 4700, to provide agencies with instructions to meet the requirements of
GMRA. The TFM Chapter 4700 requires agencies to:

1. Reclassify all items and amounts on the audited consolidated, department-level
   balance sheets, statements of net cost, changes in net position/income statement,
   social insurance and custodial activity, if applicable, to the special-purpose financial
   statements;

2. Disclose special-purpose financial statement line item amounts identified as Federal
   by trading partner and amount (amounts should be net of intra-agency and intra-
   departmental eliminations);

3. Disclose notes required by Balance Sheet line items and other notes required in the
   Financial Report of the U.S. Government (FR); and

4. Disclose other data not contained in the primary FR financial statements and notes
   required to meet GAAP requirements.




                                                  4
